OIG Investigative Reports Press Release Waterloo, IA., 02/05/2013 - Waterloo Man Receives Additional Prison Time For Failing To Surrender For Service Of Federal Sentence
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRICT OF IOWA
NEWS
Waterloo Man Receives Additional Prison Time For Failing To Surrender For Service Of Federal Sentence
FOR IMMEDIATE RELEASE
February 05, 2013
Contact: Peter Deegan
A man who failed to appear for service of his federal sentence was sentenced today to more than two additional years in federal prison.
Roy Lee Turner, III, age 32, from Waterloo, Iowa, received the prison term after a November 9, 2012, guilty plea to one count of failing to surrender for service of a federal sentence.
At the plea hearing, Turner admitted that, on May 21, 2012, Turner failed to surrender to the United States Marshal for service of a federal sentence. Turner had previously been sentenced on April 30, 2012, to five years' imprisonment on one count of federal financial aid fraud. Following imposition of the sentence, Turner was ordered to surrender himself to the United States Marshal in Cedar Rapids at 10:00 a.m. on May 21, 2012. Turner admitted that he knew of the order to turn himself in and he intentionally failed to do so.
Turner was sentenced in Cedar Rapids by United States District Court Chief Judge Linda R. Reade. Turner was sentenced to 27 months' imprisonment. A special assessment of $100 was imposed, and he must serve a three-year term of supervised release after the prison term. There is no parole in the federal system.
The case was prosecuted by Assistant United States Attorney Peter Deegan and was investigated by the United States Department of Education and the United States Marshal's Service.
Court file information is available at https://ecf.iand.uscourts.gov/cgi-bin/login.pl. The case file number is 12-63. The case file number for Turner's prior financial fraud case is 11-152.
Top
Printable view
Last Modified: 02/12/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov